          U.S. Department of the Interior
              Office of Inspector General
                                  Audit Report




Private Use of
Public Lands
National Park Service
Bureau of Land Management




             . Department    of the Interior
                 Report No. W-IN-MOA-0008-2005
                                     April 2007
Description of Cover Photographs – Clockwise from Top Left

    ¾ Water slides at Breezy Point Surf Club – Photo Courtesy of Breezy Point Surf Club
    ¾ Aerial view of Rockaway Point Yacht Club – Photo Courtesy of Rockaway Point Yacht Club
    ¾ Sage Pistol League shooting range canopy and concrete deck – Photo Courtesy of Office of
               Inspector General
    ¾ Chesapeake & Ohio Canal National Historic Park canal and towpath – Photo Courtesy of Office of
               Inspector General
    ¾ Cabanas at Silver Gull Beach Club – Photo Courtesy of Silver Gull Beach Club
                     United States Department of the Interior

                                      Office of Inspector General
                                           Western Region
                                               Federal Building
                                        2800 Cottage Way, Suite E-2712
                                           Sacramento, California 95825

                                                                                   April 10, 2007
                                                                                             7430

Memorandum

To:        Assistant Secretary, Fish and Wildlife and Parks
           Assistant Secretary, Land and Minerals Management

From:      Michael P. Colombo
           Regional Audit Manager

Subject:   Private Use of Public Lands, National Park Service and Bureau of Land
           Management (Report No. W-IN-MOA-0008-2005)

       Attached is our final audit report on the National Park Service’s (NPS) and Bureau of
Land Management’s (BLM) special-use permits that allow for the private use of public lands.
Our objective was to determine whether NPS and BLM excluded the general public and/or
damaged the environment by the permitting of public lands for private use.

        We found that NPS has allowed private individuals or exclusive clubs to monopolize
desirable locations near major metropolitan areas for decades to the exclusion of the general
public, although we could not identify the extent of this permitting. Some of the clubs charge
high membership fees or limit the number of people who can become members. NPS
continues to renew the permits for these exclusive clubs and has kept the $2.6 million in permit
fees received over the 4-year period of our review instead of remitting the funds to the U.S.
Treasury. Moreover, both NPS and BLM have allowed permits to be renewed without
ensuring their compliance with the requirements of the National Environmental Policy Act
(NEPA). We made four recommendations related to NPS to identify the extent of exclusive
use, ensure full public access, and remit permit fees to the U.S. Treasury, and one
recommendation to both NPS and BLM to comply with NEPA.

        In its March 6, 2007 response to our draft report, NPS concurred with the five
recommendations and stated that it would work closely with the “OIG, Department, and others
to ensure that these actions help to achieve a transparent, legal, and efficient Special Park Uses
program.” In its February 9, 2007 response, BLM did not concur with our recommendation to
develop a process to ensure field offices perform appropriate NEPA reviews before issuing
special recreation permits. BLM stated that its current guidance was sufficient. Based on the
responses, we have asked NPS to provide additional information and BLM to reconsider the
one recommendation.
         The legislation, as amended, creating the Office of Inspector General (OIG) requires
that we report to Congress semiannually on all audit reports issued, the monetary effect of
audit findings, actions taken to implement our audit recommendations, and recommendations
that have not been implemented. Please see Appendix 1 for the monetary effect of the findings
in this report.

        Please provide a written response to this report by May 18, 2007. The response should
supply the information requested in Appendix 5. We appreciate the cooperation shown by
your bureaus during our review. If you have any questions regarding this report, please call me
at (916) 978-5653.

Attachment

cc: Director, National Park Service
    Director, Bureau of Land Management
    Audit Liaison Officer, Assistant Secretary, Fish and Wildlife and Parks
    Audit Liaison Officer, Assistant Secretary, Land and Minerals Management
    Audit Liaison Officer, National Park Service
    Audit Liaison Officer, Bureau of Land Management




                                               2
                                               Table of Contents

                                                                                                                                    Page
Introduction ...........................................................................................................................1
 Background ..........................................................................................................................1
 Objective and Scope ...........................................................................................................1

Results of Audit .....................................................................................................................3
 Exclusive Use.......................................................................................................................3
 Retention of Fees ................................................................................................................5
 Environmental Safeguards ...................................................................................................6
 Recommendations................................................................................................................7
 Responses and OIG Reply ...................................................................................................8

Appendices
  1 Monetary Effect ...........................................................................................................9
  2 Scope & Methodology, Prior Audit Coverage, and Sites Visited ..............................10
  3 Exclusive Use..............................................................................................................13
  4 NPS and BLM Responses...........................................................................................14
  5 Status of Audit Recommendations..............................................................................19




Acronyms
BLM........................................................................................Bureau of Land Management
DOI ..................................................................................... U.S. Department of the Interior
EA ..............................................................................................Environmental Assessment
FWS ..................................................................................... U.S. Fish and Wildlife Service
GAO...............................................................................Government Accountability Office
IG .............................................................................................................. Inspector General
NEPA ............................................................................ National Environmental Policy Act
NHP....................................................................................................National Historic Park
NPS .................................................................................................... National Park Service
NRA ..............................................................................................National Recreation Area
NWR .............................................................................................National Wildlife Refuge
OGC ............................................................................................ Office of General Counsel
OIG ........................................................................................... Office of Inspector General
RM ........................................................................Reference Manual for Special Park Uses
U.S.C.......................................................................................................United States Code



                                                                  i
                                      INTRODUCTION

Background                                              guidance for NPS and BLM include
                                                        criteria about when and where specific
Collectively, NPS and BLM manage                        types of activities can occur. For
545 locations on 346 million acres of                   example, the bureaus’ policy guidance
public lands. Both bureaus issue                        generally states that activities may be
special-use permits1 to individuals,                    permitted if, among other things, they:
private groups, or organizations for a
variety of activities2 on these lands,                  ¾ Are not contrary to the purposes for
including off-highway vehicle races,                      which the area was established,
athletic events, organized group outings,
festivals, wedding ceremonies,                          ¾ Do not unreasonably interfere with
commercial filming, and still                             visitation,
photography.
                                                        ¾ Do not present a clear and present
                                                          danger to public health and safety,

                                                        ¾ Do not result in significant conflict
                                                          with other existing uses, or

                                                        ¾ Do not injure or damage the
                                                          resources (primarily for NPS).

                                                        The National Park Service Organic Act
                                                        of 1916 prohibits leasing, renting, or
                                                        granting (through permits) of land and
                                       Figure 1         structures if such activity interferes with
                Special-use permitted activity at       free public access to them. BLM
    Washington Canoe Club, District of Columbia         regulations do not allow the permittee to
                                                        obstruct or impede public visitation
Special-use permits are generally used to
                                                        while engaged in activities covered
manage visitor use, protect and conserve
                                                        under the permit. To adhere to their
natural and cultural resources, authorize
                                                        missions of preserving and protecting
special recreational use, and impose
                                                        the nation’s resources for the benefit of
terms and conditions on the permittee.
                                                        present and future generations, BLM and
Other types of use authorizations include
                                                        NPS, under NEPA, must consider the
lease agreements, right-of-ways, and
                                                        environmental impacts of proposed
concession contracts.3 Permitting
                                                        activities before issuing permits.
1
  BLM refers to its permits as special recreation
permits.                                                Objective and Scope
2
  Special-use permits are issued for a period not
to exceed 5 years for NPS and 10 years for              Our objective was to determine whether
BLM.                                                    NPS and BLM excluded the general
3
  Concession contracts allow private parties to
provide facilities or services to the public.           public and/or damaged the environment


                                                    1
by the permitting of public lands for       BLM (155) locations. We also reviewed
private use. The scope of our audit         special-use permits issued prior to 2002
included special-use permits issued         that were still active (see Appendix 2).
during fiscal years 2002, 2003, 2004,
and 2005 for selected sites (see
Figure 2), which comprised only
1.3 percent of the 545 NPS (390) and




                                        2
                                 RESULTS OF AUDIT

NPS has allowed private parties or                     Exclusive Use
exclusive clubs to monopolize desirable
locations near urban areas for decades                 As permit holders, private parties and
and has improperly retained millions of                clubs have enjoyed exclusive rights to
dollars that should have been remitted to              public lands through restrictive and
the U.S. Treasury.                                     costly memberships that deny the
                                                       general public the same benefits. Our
                                                       limited review uncovered five instances
                                                       (see Appendix 3) where NPS has
                                                       permitted groups to operate beach and
                                                       surf clubs, boat moorings, canoeing
                                                       facilities, and cabins to the exclusion of
                                                       the general public. Moreover, some of
                                                       these operations, located near major
                                                       metropolitan areas, offer preferential
                                                       access to beaches, waterways, and scenic
                                                       nature areas. In some instances, NPS
                                                       has authorized this exclusivity for 30 or
                                                       more years.

                                                       ¾ Costly and restrictive
                                                         memberships. Some clubs charge
                                                         high membership fees or limit the
                                                         number of people who may become
                                                         members. At the Gateway National
                                                         Recreation Area (NRA)4 in New
                                     Figure 2            York, two private beach clubs, the
    Private clubs operating along the east coast         Silver Gull Beach and Breezy Point
                     under a special-use permit
                                                         Surf Clubs, charge membership fees,
                                                         ranging from $315 for a child to
Further, both NPS and BLM have                           $770 for an adult couple, for a 3-
allowed permits to continue without                      month summer season. In addition
ensuring environmental safety. These                     to these fees, members are typically
practices, identified in a limited review                required to pay a cabana rental fee,
of sites, raise the question: To what                    which ranges from a low of $400 to a
degree is the Department of the Interior                 high of $9,999,5 for the season.
(DOI) denying the public access to
public lands and improperly using
                                                       4
receipts?                                                Gateway NRA consists of three park areas or
                                                       units—Jamaica Bay, Staten Island, and Sandy
                                                       Hook. The surf clubs and yacht club operate
                                                       within the Jamaica Bay Unit.
                                                       5
                                                         There is only one cabana priced at $9,999. The
                                                       seasonal cabana, cabanette, or bath cabin rental
                                                       rates vary by type and location.



                                                   3
Minimum membership cost for a                       Board of Director approval for
family of four at these private clubs               membership.
is $2,215 (Silver Gull) and $1,800
(Breezy Point). The surf clubs offer            ¾ Lengthy permits. NPS has renewed
a clubhouse, bathing beaches,                     special-use permits that grant
swimming pools, cabanas, lockers, a               exclusive rights for decades. The
cafeteria, bar and lounge, tennis and             Silver Gull Beach and Breezy Point
handball courts, and private parking              Surf Clubs have operated under
(see Figures 3 and 4).                            permits that began over 30 years ago.
                                                  These renewals continue even
                                                  though the 1979 General
                                                  Management Plan for Gateway NRA
                                                  states:

                                                      Existing cabana structures,
                                                      which invade the beach, will be
                                                      removed, but new cabana and
                                                      seasonal locker facilities will be
                                                      developed for use by the general
                                                      public (no club memberships).

                                                   The intent to abolish club
                              Figure 3             memberships was made clear in a
                   Silver Gull Beach Club          1984 memorandum from an NPS
                                                   regional director who wrote that
                                                   “current membership practices will
                                                   have to be discontinued. Clubs
                                                   will be opened to the public on an
                                                   equal opportunity basis.” Another
                                                   Gateway NRA club, the Rockaway
                                                   Point Yacht Club, has operated on
                                                   public lands for over 30 years and
                                                   continues to operate, although the
                                                   permit expired in 2004.

                                                ¾ Lack of public access. Private
                              Figure 4            clubs have erected fences and
        Cabanas at Breezy Point Surf Club
                                                  created other impediments to
Other clubs have waiting lists and                preclude access to facilities or public
cumbersome membership processes.                  lands described on the permits. For
The Washington Canoe Club in the                  example, a chain-link fence topped
District of Columbia, for example,                with barbed wire surrounds NPS
caps its dues-paying membership at                land used by the Washington Canoe
200 and has a waiting list of                     Club within the Chesapeake & Ohio
35 people. This club also requires                Canal National Historic Park (NHP).
an applicant to have two member                   According to the permit, use of
sponsors, a private interview, and                22 cabins in the NHP is controlled



                                            4
                                                                                         Figure 6
                                    Figure 5                     Boat moorings at private yacht club
          Fencing that can impede public access
                                                      Retention of Fees
     by the Whites Ferry Sportsman’s
     Club, even though NPS owns all the               During our review of the special-use
     cabins. In addition, at Gateway                  permits issued to the Silver Gull Beach
     NRA, monitored gates prevent                     and Breezy Point Surf Clubs, we noted
     public entry to lands on which the               that Gateway NRA improperly collected,
     surf clubs operate.                              for its own use and expenditures, an
                                                      estimated $2.6 million in permit fees.
A 1984 OIG audit report6 questioned the
appropriateness of using special-use                  NPS has specific statutory authority to
permits to allow private beach clubs to               recover costs associated with special-use
operate on federal lands and                          permits and to retain the funds recovered
recommended that NPS “obtain a legal                  at the parks issuing the permits to defray
opinion from the Office of the Solicitor              the costs of administering and
if NPS plans to continue using the beach              monitoring the permits (16 U.S.C. '3a).
clubs in a manner which restricts public              However, the NRA lacked timekeeping
access.” We were told that Gateway                    records for processing permits and
NRA never formally requested a written                administering and monitoring permitted
legal opinion.                                        activities to specifically determine the
                                                      actual costs incurred for managing the
Beach and surf clubs, boat moorings,                  special park use. Since federal law
canoeing facilities, cabin rentals, a                 requires fees collected in excess of
shooting range, and a water pump are all              actual costs to be deposited into the U.S.
operated under permits we reviewed. In                Treasury, the NRA should have
each instance, another type of legal                  deposited substantially all of the
instrument, such as a concession                      $2.6 million. The OIG Office of
contract, lease, or right-of-way, may                 General Counsel (OGC) opined:
have been more appropriate to use rather
than a special-use permit.                               NPS appears to have improperly
                                                         augmented its appropriations by
                                                         collecting fees well in excess of its
6
                                                         actual costs in providing necessary
 June 1984 OIG report, Review of Gateway                 services associated with Gateway
National Recreation Area, National Park Service
(E-FW-NPS-11-83). See Appendix 2.                        [NRA] special use permits. In


                                                  5
    addition, NPS seems to have                      Before issuing a permit, NPS and BLM
    wrongly retained such funds                      are required to meet NEPA requirements
    without any regard to the fiscal                 in all instances when a federal resource
    time and purpose limitations                     may be affected. Under NEPA, federal
    imposed on reimbursed costs by                   agencies must integrate environmental
    16 U.S.C. ' 3a and general                       values into the decision-making
    reimbursement principles.7 To the                processes by considering the
    extent that NPS has collected                    environmental impacts of proposed
    special use permit fees beyond                   actions. NPS and BLM document the
    necessary costs, these moneys                    impacts through technical evaluations of
    should have been deposited ‘as                   individual permits. Both NPS and BLM,
    soon as practicable without                      however, failed to adequately consider
    deduction’ in the Treasury general               the environmental consequences
    fund.8 In failing to do so, NPS                  inherent in the private use of public
    does appear to have violated                     lands. Such consequences could include
    31 U.S.C. ' 3302(b) [the                         user impacts, such as population density,
    ‘miscellaneous receipts’ statute]                waste disposal, and hazardous material
    and the fiscal rule against                      storage, on the flora and fauna at the site.
    augmentation of appropriations.                  Environmental consequences were not
                                                     considered for 18 of the 20 NPS permits
OGC further advised that this matter                 and for 1 of the 6 BLM permits
should be referred to the Office of the              reviewed. For example:
Solicitor to determine the proper
distribution of the $2.6 million collected           ¾ The long-standing operations of
in excess of costs incurred to administer              private clubs at Gateway NRA have
the permits.                                           not undergone a NEPA review.
                                                       NRA officials stated that such a
Environmental Safeguards                               review was probably not done
                                                       because the clubs already existed in
In addition to precluding general public               1974, when the State of New York
benefit, NPS and BLM have not lived up                 transferred club operations to NPS.
to the spirit of their own mission                     We recognize that although Gateway
statements and environmental laws to                   NRA inherited these operations, it
conserve and protect our nation’s natural              has consistently renewed club
and cultural resources for the benefit of              permits over the last 30 years
future generations and to strike a balance             without a NEPA review and has
between the preservation and use of                    therefore not identified or considered
these resources. Out of the 26 permits                 potentially significant negative
reviewed, environmental reviews had                    impacts to the environment.
been done on only 7.
                                                     ¾ The Chesapeake & Ohio Canal NHP
                                                       did not conduct an environmental
7
                                                       review before issuing a special-use
  Government Accountability Office’s (GAO)             permit in 1968 to Bretton Woods
Principles of Federal Appropriations Law
(Redbook), vol. 2, ch. 6, at 170, 174 (2006);          Recreation Center to place a portable
16 U.S.C. § 3a (2006).                                 gasoline-powered water pump at the
8
  31 U.S.C. § 3302(b) (2006) (emphasis added).



                                                 6
   edge of the Potomac River to pump                  During our visit to the shooting
   water into an irrigation holding pond.             range, we observed bullet casings
                                                      scattered on the ground. A BLM
¾ The NEPA adequacy document                          official told us that casings were
  completed by BLM’s Ridgecrest                       cleaned up at various times during
  Field Office in California for                      the year, but he did not know how
  issuance of a 10-year special                       often. Since sand and gravel mining
  recreation permit to the Sage Pistol                may resume at any time, BLM
  League (League) does not adequately                 needs to ensure that the League
  reflect the use allowed under the                   removes all the lead shots and
  permit. The permit allows the                       cleans up any spent bullet casings.

                                                  Recommendations

                                                  We recommend that the Assistant
                                                  Secretary for Fish and Wildlife and
                                                  Parks and the Assistant Secretary for
                                                  Land and Minerals Management take the
                                                  following actions:

                                Figure 7          1. Determine the extent to which
                       Gun cleaning station          special-use permits limit long-term
                                                     public access to public lands. (NPS
    League to develop and maintain a                 only)
    shooting range on a sand and gravel
    pit located on public lands and to            2. Direct NPS officials not to renew
    conduct organized competitive                    those special-use permits that limit
    events and commercial instruction                long-term public access to public
    sessions. BLM completed an                       lands. (NPS only)
    environmental assessment (EA) in
    May 1997 to support a permit for a            3. Open facilities having exclusive use
    one-time, 2-day match held by the                to the general public and determine
    League. The current 10-year permit               the appropriate legal instrument,
    allows for an unlimited number of                such as concessions, leases, and
    matches. However, the NEPA                       right-of-ways, under which to
    adequacy document states that the                operate. (NPS only)
    new permit has “substantially the
    same action as previously analyzed”           4. Seek the advice of the Solicitor’s
    in the 1997 EA. The 1997 EA also                 Office to determine the proper
    stated that “lead shot embedded in               disposition of the inappropriate
    the gravel bank . . . be removed                 $2.6 million augmentation of NPS’s
    before those specific areas could be             appropriation. (NPS only)
    mined.” We were told that the
    bullets, generally made of lead with          5. Develop a process that ensures field
    brass casings, lodged in the gravel              offices and park units perform
    bank are not routinely removed.                  appropriate NEPA reviews prior to


                                              7
   the issuance of special-use and                provide “guidance on reoccurring public
   recreation permits and document the            health, safety, and resource management
   results of the reviews. (NPS and               issues.” BLM also did not concur with
   BLM)                                           our finding that the current permit for
                                                  the League involves substantially
Responses and OIG Reply                           different activities than those analyzed
                                                  for the 1997 permit. 9
NPS Response. In its March 6, 2007
response to our draft report                      OIG Reply. We are asking BLM to
(Appendix 4), NPS concurred with the              reconsider Recommendation 5 for the
five recommendations and stated that it           following reasons. First, we
would work closely with the “OIG,                 categorically reject BLM’s assertion that
Department, and others to ensure that             “tiering” documents can be used to
these actions help to achieve a                   approve a 10-year shooting-range permit
transparent, legal, and efficient Special         based on a 1997 EA for a one-time, 2-
Park Uses program.” NPS stated that as            day shooting match. Second, the
requested in Recommendation 1, it                 Handbook alone does not constitute a
would initiate a study to address special-        process of active oversight of BLM’s
use permits within 3 months of issuance           permitting procedures. While this
of our report.                                    document and the Shooting Range
                                                  Toolkit are guides and procedures for the
Based on the results of the study, NPS            offices to follow, they do not identify
will implement Recommendations 2 and              management’s oversight responsibility
3. To address Recommendation 4, NPS               for ensuring compliance. Although our
will present the issue of Gateway NRA’s           review found one instance of BLM’s
use of special-use fees to the Office of          noncompliance with NEPA, we also
the Solicitor for a determination as to the       identified other Handbook compliance
proper disposition of these fees. NPS             issues, such as improper calculations of
agreed to create a 5-year review rotation         fees and the failure to collect fees for at
process to ensure NEPA compliance for             least 36 of the 103 special recreation
park special-use permits                          permits reviewed. We disclosed this
(Recommendation 5).                               noncompliance to BLM under separate
                                                  cover.
BLM Response. In its February 9, 2007
response (Appendix 4), BLM did not                Accordingly, we believe that BLM needs
concur with Recommendation 5 to                   to create a process of active oversight of
develop a process to ensure field offices         its permitting procedures, since even one
perform appropriate NEPA reviews                  failure to comply with NEPA is not
before issuing special recreation permits.        acceptable. We look forward to working
BLM stated that its Recreation Permit             with NPS to implement our
Administration Handbook provides the              recommendations and are asking NPS
necessary guidance for state and field            for the information shown in
office personnel to perform appropriate           Appendix 5.
reviews. BLM also stated that in 2006 it
had developed and sent to its field               9
                                                   BLM attached the Handbook to its response.
offices a ‘Shooting Range Toolkit’ to             We did not include the Handbook in Appendix 4,
                                                  however, because of its size.



                                              8
                                                            Appendix 1

Monetary Effect


                                         Funds To Be Put To
              Finding Area                   Better Use

       Augmentation of NPS’s                 $2.6 Million
       Appropriation (Retention of
       Special-Use Permit Fees -
       Recommendation 4)




                                     9
                                                                          Appendix 2
                                                                              Page 1 of 3

Scope & Methodology, Prior Audit Coverage, and Sites Visited

Scope & Methodology                               ¾ Applicable laws, regulations,
                                                    policies, procedures, and other
This self-initiated audit was included in           criteria, including policy guidance
the OIG fiscal year 2006 audit work                 found in NPS’s Reference Manual
plan. We conducted our fieldwork from               for Special Park Uses (RM-53) and
January 2006 through June 2006. To                  BLM’s Handbook for Recreation
accomplish the audit, we judgmentally               Permit Administration (H-2930-1).
selected and visited nine NPS park units,
                                                  ¾ Permit files, permitting practices,
BLM field offices, and U.S. Fish and
                                                    financial records, membership lists,
Wildlife Service (FWS) refuges (see
                                                    NEPA, and other documents, as
“Sites Visited” on page 11). We focused
                                                    appropriate.
our review on NPS and BLM permits
granting, mostly for extended periods of          ¾ DOI’s Annual Report on
time, special uses to private entities. We          Performance and Accountability for
did not find these types of permits at the          fiscal years 2004 and 2005, which
FWS refuges visited.                                included information required by the
                                                    Federal Manager’s Financial
NPS and BLM do not maintain national                Integrity Act. We determined that
data on the number of special-use                   none of the reported weaknesses
permits granted to private parties for              directly related to our audit
extended time periods. In the absence of            objective.
this information, we selected NPS sites
that were close to metropolitan areas and         ¾ DOI’s Strategic Plan for fiscal years
bodies of water and BLM sites that,                 2003 to 2008, prepared in
comparatively speaking, generated a                 accordance with the Government
greater amount of special-use fees than             Performance and Results Act, to
other BLM field offices.                            determine the goals and measures
                                                    related to special-use permits. We
We conducted our audit in accordance                did not identify any goals that
with the Government Auditing                        specifically related to special-use
Standards, issued by the Comptroller                permits. However, we did identify
General of the United States.                       two goals related to the use of
Accordingly, we included such tests of              natural and cultural resources to
records and other auditing procedures as            (1) enhance public benefit and
we considered necessary under the                   promote responsible use and
circumstances. As part of                           (2) provide for a quality recreation
our audit, we reviewed the following:               experience, including access and
                                                    enjoyment. These goals, however,




                                             10
                                                                         Appendix 2
                                                                              Page 2 of 3

    did not specifically provide                to collect location fees and costs for such
    performance measures.                       activities.

¾ Internal controls related to the                  OIG. We have not issued any
  renewing of special-use permits               reports in the last 5 years related to
  having exclusive use; performing of           special-use permits. However, a report
  appropriate NEPA reviews and                  Review of Gateway National Recreation
  documenting the results of the                Area, National Park Service (E-FW-
  reviews; and remitting of funds in            NPS-11-83), issued in June 1984, is
  excess of actual costs to the U.S.            directly applicable to our audit. This
  Treasury. Our recommendations, if             report identified two private beach clubs,
  implemented, should improve                   operating within Gateway NRA under
  internal controls in these areas.             special-use permits, whose operations
                                                appeared inconsistent with public use of
We also interviewed agency                      an NRA, and questioned the
headquarters officials, field office and        appropriateness of using special-use
park unit managers, and other BLM and           permits to allow private beach clubs to
NPS staff and toured the operations of          operate on federal lands. The report also
selected permitted activities.                  questioned the high membership costs of
                                                these clubs, which excluded a significant
Prior Audit Coverage                            portion of the general public from the
                                                use of club facilities. The report
   GAO. In the last 5 years, GAO                recommended that NPS obtain a legal
issued one report National Park Service:        opinion from the Office of the Solicitor
Revenues Could Increase by Charging             if NPS planned to continue using the
Allowed Fees for Some Special Uses              beach clubs in a manner which restricted
Permits (GAO-05-410), May 2005,                 public access.
related to special-use permits. GAO
reported that during fiscal year 2003,          During our current review, we were told
park units did not consistently apply           that Gateway NRA never formally
NPS guidance for permitting special             requested a written legal opinion. In
events, commercial filming, and still           1990, the Assistant Secretary for Policy,
photography and often did not identify          Management and Budget indicated that
and recover costs associated with               the former Inspector General (IG)
permitting such activities. GAO                 concurred with the use of special-use
recommended that NPS identify and               permits for such operations. However,
collect fees for administering and              22 years have passed since the 1984
monitoring special events, commercial           audit report was issued, and we do not
filming, and still photography and              believe the former IG envisioned that the
expedite implementing the requirement           surf clubs’ operations would continue to
                                                exclude the general public from facilities
                                                on federal lands for over two decades.



                                           11
                                                                            Appendix 2
                                                                              Page 3 of 3


Sites Visited

                         NPS                                        State
Chesapeake & Ohio Canal NHP                            Maryland
Gateway NRA                                            New York
Golden Gate NRA                                        California
Statue of Liberty National Monument and Ellis Island   New York
NPS Headquarters                                       District of Columbia

                        BLM                                         State
Barstow Field Office                                   California
Ridgecrest Field Office                                California
Winnemucca Field Office                                Nevada
BLM Headquarters                                       District of Columbia

                      FWS                                           State
Crab Orchard National Wildlife Refuge (NWR)            Illinois
Sacramento NWR                                         California

             Private Clubs or Entities                    Management Site
Breezy Point Surf Club                                 Gateway NRA
                                                       Chesapeake &Ohio
Potomac Fish and Game Club                             Canal NHP
Rockaway Point Yacht Club                              Gateway NRA
Sage Pistol League                                     Ridgecrest Field Office
Silver Gull Beach Club                                 Gateway NRA
                                                       Chesapeake & Ohio
Washington Canoe Club                                  Canal NHP


                                                                                        .




                                         12
                                                                                    Appendix 3



                                      Exclusive Use
                     Silver                                           Rockaway
                                    Breezy                                     Whites Ferry
                      Gull                                              Point
                                   Point Surf                                  Sportsman’s
                     Beach                         Washington          Yacht
     Attributes                      Club                                         Club
                     Club                           Canoe Club          Club
                                                   District of
     Location      New York       New York                            New York       Maryland
                                                   Columbia
     Members/      3,008/                                                            Unknown/22
                                  3,574/ 5,000     200/20010          111/100
       Cap         4,000                                                             cabins
                                                   Three steps:
                                                   (1) interview,
                                                   (2) two            Two
Membership         Cabana         Cabana
                                                   member             member         Unknown
 Process           fees           fees11
                                                   sponsors, and      sponsors
                                                   (3) Board
                                                   approval.
                                                   Application                       Cabin rental
 Minimum           For family     For family       Fee: $30                          as of 199214:
                                                                      Annual:
Membership         of four:       of four:         Membership                        $700 per
                                                                      $490
   Cost            $2,215         $1,80012         Cost varies by                    cabin per
                                                   type13                            season
                                                                      As of
      Annual
                   $3 million     $3.3 million     Unknown            2003:          Unknown
     Revenues
                                                                      $71,500
 Annual Fee        Average:       Average:
                                                   $5,000             $500           $9,000
 Paid to NPS       $296,000       $342,000
   Permit
                   2007           2007             2007               2004           2007
 Expiration
  Founded          1963           1937             1904               1909           Prior to 1970
    Year
 Acquired by       1974           1974             1971               1974           1974
    NPS




10
   This number represents dues-paying members only.
11
   Members residing at Breezy Point, New York, are not required to rent a cabana.
12
   This amount is for a family of four not residing at Breezy Point, New York.
13
   Full: Entrance fee is $300. Annual fees are $400; Aquatics: Annual dues $125; Nonresident: Annual
dues are $25.
14
   Since 1992, this club has not publicly disclosed its cabin rental rates.


                                                 13
                             Appendix 4

NPS and BLM Responses




                        14
15
16
17
18
                                                              Appendix 5

Status of Audit Recommendations


     Recommendation     Status                   Action Required
     NPS
                      Management      Provide the titles of responsible
           1-5         Concurs;       officials and target dates for
                       Additional     implementation.
                      Information
                        Needed
     BLM
           5          Unresolved      Reconsider the recommendation and
                                      provide a plan identifying actions to be
                                      taken, target dates for completion, and
                                      the title of the official responsible for
                                      implementation.




                                 19
